(""' '""4
 ",,,~ ~ERV'Ce8




(~
 '" ""~\.
 ~,,<:::i
  -llt\ld30e
                   DEPARTMENT OF HEALTIl
                   DEPARTMENT OF HEALTH &&HUMAN
                                          HUAN SERVICES
                                                SERVICES                                               Office
                                                                                                       Office of Inspector
                                                                                                                 Inspector General


                                                                                                       Washington, D.C.
                                                                                                       Washington,
                                                                                                                           General


                                                                                                                   D.C. 20201

                                                                                                                        20201




                                                           AUG 22552009

                                                           AUG      2009

            TO:
            TO: Charlene  Frizzera
                     Charlene Frizzera
                             Acting Administrator
                                                    Medicaid Services
                                                  & Medicaid
                             Centers for Medicare &          Services


            FROM: i!;h(~
            FROM:       lfh( ~
                 ~:;;~y           Inspector
                       ~:;;~y Inspector     General
                                        General  forforAudit
                                                        AuditServices

                                                              Services 



            SUBJECT: Payments
                       Paymentsforfor
                                    Ambulance
                                      AmbulanceTransportation
                                                TransportationProvided
                                                               Provided to
                                                                         to Beneficiaries in Skilled
                                                                            Beneficiaries in Skiled
                                      Covered Under
                       Nursing Stays Covered  Under Medicare Part A in Calendar Year 2006
                             (A-O 1-08-00505)
                             (A-OI-08-00505)


            The attached final report provides the results ofof our review of
                                                                            of payments for ambulance
            transportation provided
                           provided toto beneficiaries
                                         beneficiaries in skilled nursing facility
                                                          skiled nursing  facility (SNF)
                                                                                   (SNF) stays covered under
            Medicare Part
            Medicare  Par AA in
                              in calendar
                                 calendar year
                                           year (CY)
                                                 (CY) 2006.
                                                       2006.

            Under the prospective payment system, some ambulance transportation provided by outside
            suppliers to SNF residents is included in the SNFs' Medicare
                                                                Medicare Part
                                                                          Part A
                                                                               A payments
                                                                                 payments and
                                                                                            and isis subject
                                                                                                      subjectto
                                                                                                              to
            consolidated
            consolidated billing.  Therefore,Medicare
                          biling. Therefore,  MedicarePart
                                                        PartBBpayments
                                                              payments that
                                                                        that suppliers
                                                                             suppliers receive for the
            transportation are overpayments.

            The objective of our review was to determine whether ambulance suppliers complied with
            consolidated billing requirements in CY 2006.

            Ambulance
            Ambulance suppliers
                            suppliers did
                                       did not
                                            not always
                                                 always comply
                                                          comply with
                                                                    with consolidated
                                                                          consolidated billing   requirements in
                                                                                         biling requirements   in CY
                                                                                                                  CY 2006.
            Of
            Of  the 114 claims
                           claims that
                                   that we
                                        we reviewed,
                                             reviewed, 6161 claims
                                                              claims totaling
                                                                      totaling $26,983
                                                                                $26,983 were
                                                                                          wereincorrectly
                                                                                                incorrectlybilled
                                                                                                            biled to
            Medicare
            Medicare Part B    B for
                                 for transporting beneficiaries to receive services that did not suspend or end
            their SNF
                  SNF resident status
                                    status and
                                           and were
                                                 were not
                                                       not related
                                                             related to
                                                                     to dialysis.  The ambulance transportation was thus
                                                                        dialysis. The
            subject
            subject toto consolidated
                         consolidatedbilling
                                         biling and should
                                                       should notnot have
                                                                     have been
                                                                           beenbilled
                                                                                  biled to Medicare   Part B.
                                                                                           Medicare Part       As a result,
                                                                                                           B. As
            the
            the Medicare
                 Medicare program
                              program paid
                                        paid twice
                                               twice for
                                                      for the
                                                           the ambulance
                                                                ambulance transportation:
                                                                            transportation: once to the SNF under the
            Part
            Par A A prospective
                    prospective payment system and again to the ambulance   ambulance supplier
                                                                                          supplier under Part B.
                                                                                                   under Part  B. For the
            53
            53 remaining
                remainingclaims,
                              claims,suppliers
                                       supplierscorrectly
                                                   correctlybilled
                                                                biled Part
                                                                      Par BB for
                                                                              for transportation excluded from
            consolidated
            consolidated billing     because the
                             biling because     the transportation
                                                    transportation either
                                                                      either ended
                                                                             ended the beneficiaries'
                                                                                         beneficiaries' SNF
                                                                                                        SNF resident
                                                                                                              resident status
                                                                                                                       status
            or was
               was for
                     for services
                          services that
                                    that suspended their SNF resident status or were related to dialysis services.

            Based
            Based on
                   on our
                      our sample
                           sample results,
                                    results, we
                                             we estimated
                                                estimated that
                                                          that Medicare
                                                               Medicare Part
                                                                         Part BB carriers
                                                                                 carriers made     total of
                                                                                          made aa total  of
            $12.7 million
            $12.7 milion inin  potential overpayments  to suppliers
                                         overpayments suppliers     for ambulance    transportation  provided to
                                                                                                              to
            beneficiaries
            beneficiaries in
                           in Part                     2006. These
                              Par A SNF stays in CY 2006.      These potential
                                                                     potential overpayments
                                                                                overpayments occurred because
Page 2 – Charlene Frizzera


ambulance suppliers did not have the necessary controls to prevent incorrect billing to Medicare
Part B and because SNFs did not always provide the suppliers with accurate information
regarding SNF residents’ Medicare Part A status. In addition, the payment controls in the
Centers for Medicare & Medicaid Services’ (CMS) Common Working File were not designed to
prevent and detect Part B overpayments to ambulance suppliers for all transportation subject to
consolidated billing.

We recommend that CMS:

   •	 instruct its carriers to recover the $26,983 in overpayments for the 61 incorrectly billed
      claims that we identified;

   •	 instruct its carriers to review the 97,799 claims that we did not review, which represent
      $12.7 million in potential Part B overpayments;

   •	 provide additional guidance on its Web site to assist ambulance suppliers and SNFs in
      complying with consolidated billing requirements;

   •	 instruct its carriers and fiscal intermediaries to provide guidance to suppliers and SNFs
      on strengthening billing controls to ensure compliance with consolidated billing
      requirements, including timely and accurate communication between suppliers and SNFs
      regarding beneficiaries’ Medicare Part A status; and

   •	 either establish additional edits in its Common Working File to prevent and detect Part B
      overpayments for ambulance transportation subject to consolidated billing or instruct its
      carriers to develop a postpayment data match and recover any identified overpayments.

In comments on our draft report, CMS concurred with our recommendations.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-01-08-00505 in all correspondence.


Attachment
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 PAYMENTS FOR AMBULANCE 

TRANSPORTATION PROVIDED TO 

  BENEFICIARIES IN SKILLED 

  NURSING STAYS COVERED 

 UNDER MEDICARE PART A IN 

    CALENDAR YEAR 2006 





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-01-08-00505

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits
with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations.
These assessments help reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.
Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues. These
evaluations focus on preventing fraud, waste, or abuse and promoting economy, efficiency, and
effectiveness of departmental programs. To promote impact, OEI reports also present practical
recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support for
OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and abuse cases
involving HHS programs, including False Claims Act, program exclusion, and civil monetary penalty
cases. In connection with these cases, OCIG also negotiates and monitors corporate integrity
agreements. OCIG renders advisory opinions, issues compliance program guidance, publishes fraud
alerts, and provides other guidance to the health care industry concerning the anti-kickback statute and
other OIG enforcement authorities.
                           Notices 


     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND 


Section 1888(e) of the Social Security Act (the Act) established a Medicare prospective payment
system for skilled nursing facilities (SNF). Under the prospective payment system, most of the
services that outside suppliers provide to SNF residents are included in the SNFs’ Medicare Part
A payments. Accordingly, pursuant to the Act’s consolidated billing requirements, SNFs are
responsible for billing Medicare Part A for these services, and suppliers are responsible for
billing the SNFs. Therefore, Medicare Part B payments that suppliers receive for these services
are overpayments.

Medicare Part A helps pay for up to 100 days of inpatient care in a SNF during a benefit period.
After beneficiaries have exhausted their allowed days of inpatient SNF coverage under Part A,
they remain eligible for Medicare Part B benefits.

Federal regulations state that, with the exception of transportation to receive dialysis services, the
SNF benefit includes ambulance transportation provided to SNF residents during a covered
Part A stay. The consolidated billing provision applies only to those services that are provided to
SNF residents. Accordingly, ambulance transportation that begins or ends beneficiaries’ SNF
resident status or that is to receive services that suspend or end their SNF resident status is
excluded from consolidated billing.

Our nationwide audit covered 97,913 Medicare Part B ambulance claims valued at $23,679,926
with dates of service in calendar year (CY) 2006 that matched 46,694 Part A SNF stays and that
thus represented potential overpayments.

OBJECTIVE

The objective of our review was to determine whether ambulance suppliers complied with
consolidated billing requirements in CY 2006.

SUMMARY OF FINDINGS

Ambulance suppliers did not always comply with consolidated billing requirements in CY 2006.
Of the 114 claims that we reviewed, 61 claims totaling $26,983 were incorrectly billed to
Medicare Part B for transporting beneficiaries to receive services that did not suspend or end
their SNF resident status and were not related to dialysis. The ambulance transportation was thus
subject to consolidated billing and should not have been billed to Medicare Part B. As a result,
the Medicare program paid twice for the ambulance transportation: once to the SNF under the
Part A prospective payment system and again to the ambulance supplier under Part B. For the
53 remaining claims, suppliers correctly billed Part B for transportation excluded from
consolidated billing because the transportation either ended the beneficiaries’ SNF resident status
or was for services that suspended their SNF resident status or were related to dialysis.




                                                  i
Based on our sample results, we estimated that Medicare Part B carriers made a total of
$12.7 million in potential overpayments to ambulance suppliers for transportation provided to
beneficiaries in Part A SNF stays in CY 2006. These potential overpayments occurred because
ambulance suppliers did not have the necessary controls to prevent incorrect billing to Medicare
Part B and because SNFs did not always provide the suppliers with accurate information
regarding SNF residents’ Medicare Part A status. In addition, the payment controls in the
Centers for Medicare & Medicaid Services’ (CMS) Common Working File were not designed to
prevent and detect Part B overpayments to ambulance suppliers for all transportation subject to
consolidated billing.

RECOMMENDATIONS

We recommend that CMS:

   •	 instruct its carriers to recover the $26,983 in overpayments for the 61 incorrectly billed
      claims that we identified;

   •	 instruct its carriers to review the 97,799 claims that we did not review, which represent
      $12.7 million in potential Part B overpayments;

   •	 provide additional guidance on its Web site to assist ambulance suppliers and SNFs in
      complying with consolidated billing requirements;

   •	 instruct its carriers and fiscal intermediaries to provide guidance to suppliers and SNFs
      on strengthening billing controls to ensure compliance with consolidated billing
      requirements, including timely and accurate communication between suppliers and SNFs
      regarding beneficiaries’ Medicare Part A status; and

   •	 either establish additional edits in its Common Working File to prevent and detect Part B
      overpayments for ambulance transportation subject to consolidated billing or instruct its
      carriers to develop a postpayment data match and recover any identified overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations. CMS’s comments
are included in their entirety as Appendix E.




                                                ii
                                                 TABLE OF CONTENTS 


                                                                                                                             Page

INTRODUCTION.............................................................................................................1


          BACKGROUND ....................................................................................................1 

              Prospective Payment System and Consolidated Billing Regulations .........1 

              Ambulance Transportation Included in Consolidated Billing ....................1 

              Ambulance Transportation Excluded From Consolidated Billing..............1 

              Medicare Contractors..................................................................................1 

              Common Working File Edits To Prevent and Detect Overpayments.........2 

              Prior Office of Inspector General Reports ..................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................2 

               Objective .....................................................................................................2 

               Scope...........................................................................................................2 

               Methodology ...............................................................................................3 


FINDINGS AND RECOMMENDATIONS ...................................................................4


          PROGRAM REQUIREMENTS.............................................................................4 


          INCORRECT PART B BILLING ..........................................................................5 


          CAUSES OF OVERPAYMENTS..........................................................................5 

               Inadequate Controls at Ambulance Suppliers and 

                 Skilled Nursing Facilities.........................................................................5 

               Inadequate Medicare Payment Controls .....................................................6 


          RECOMMENDATIONS........................................................................................6 


          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...........7 


APPENDIXES

          A – PREVIOUS OFFICE OF INSPECTOR GENERAL REPORTS ON MEDICARE
                PART B PAYMENTS MADE ON BEHALF OF BENEFICIARIES DURING
                PART A SKILLED NURSING FACILITY STAYS

          B – COMPUTER MATCH METHODOLOGY TO IDENTIFY 

                POTENTIAL OVERPAYMENTS 


          C – SAMPLING DESIGN AND METHODOLOGY

          D – SAMPLE RESULTS AND ESTIMATES

          E – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS


                                                                   iii
                                                                    i
                                        INTRODUCTION 


BACKGROUND

Prospective Payment System and Consolidated Billing Regulations

Section 1888(e) of the Social Security Act (the Act) established a prospective payment system
for skilled nursing facilities (SNF) for cost-reporting periods beginning on or after July 1, 1998.
Under the prospective payment system, Medicare Part A pays SNFs through per diem,
prospective, case-mix-adjusted payment rates that cover virtually all of their costs for furnishing
services to Medicare beneficiaries. Accordingly, pursuant to sections 1862(a)(18) and
1842(b)(6)(E) of the Act, SNFs are responsible for billing Medicare for most of the services
provided to beneficiaries in SNF stays covered under Part A, including services that outside
suppliers provide under arrangement. The outside suppliers must then bill the SNFs for these
services.

Medicare Part A helps pay for up to 100 days of inpatient care in a SNF during a benefit period.
After beneficiaries have exhausted their allowed days of inpatient SNF coverage under Part A,
they remain eligible for Medicare Part B benefits.

Ambulance Transportation Included in Consolidated Billing

Federal regulations (42 CFR § 409.27(c)) state that the SNF benefit includes medically necessary
ambulance transportation provided to a SNF resident during a covered Part A stay. Accordingly,
when an ambulance supplier erroneously bills Medicare Part B for ambulance services included
in the SNF’s Part A consolidated billing payment, Medicare pays for the same service twice—
once to the SNF and again to the ambulance supplier.

Ambulance Transportation Excluded From Consolidated Billing

The SNF consolidated billing requirement applies only to those services that are provided to a
SNF resident. As a result, ambulance transportation that begins or ends beneficiaries’ SNF stays
is excluded from consolidated billing. Federal regulations also state that receiving certain
emergency or intensive outpatient hospital services that are beyond a SNF’s scope of care
suspends a beneficiary’s status as a SNF resident. Accordingly, because the beneficiary
receiving those specific emergency or intensive outpatient hospital services is temporarily not a
SNF resident, ambulance transportation associated with those services is excluded from
consolidated billing and may be billed to Medicare Part B.

Ambulance transportation to receive dialysis services is statutorily excluded from consolidated
billing.

Medicare Contractors

Medicare Part B carriers, under contract with the Centers for Medicare & Medicaid Services
(CMS), process and pay claims submitted by noninstitutional providers, including ambulance



                                                 1

suppliers. Medicare Part A fiscal intermediaries process and pay Part A and Part B claims
submitted by institutional providers, including hospitals and SNFs. 1

Common Working File Edits To Prevent and Detect Overpayments

To prevent and detect Part B overpayments made on behalf of beneficiaries in Part A SNF stays,
CMS implemented comprehensive edits in its Common Working File in calendar year
(CY) 2002 for most types of Part B services (e.g., outpatient, radiology, and laboratory services).
However, the edits for ambulance transportation are limited to detecting suppliers’ claims for
transporting SNF residents to or from a diagnostic or therapeutic site other than a hospital or
physician office. The edits cannot detect claims for transporting SNF residents to outpatient
hospitals or physician offices to receive nonemergency services that do not suspend or end their
SNF resident status and are not related to dialysis services.

Prior Office of Inspector General Reports

Prior Office of Inspector General audits, which are listed in Appendix A, identified a total of
$431.3 million in potential Medicare Part B overpayments to various types of suppliers on behalf
of beneficiaries during Part A SNF stays during CYs 1998−2003.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether ambulance suppliers complied with
consolidated billing requirements in CY 2006.

Scope

Our nationwide audit covered 97,913 Medicare Part B ambulance claims valued at $23,679,926
with dates of service in CY 2006 that matched 46,694 Part A SNF stays and that thus represented
potential overpayments.

The objective of our audit did not require an understanding or assessment of the complete
internal control structure at CMS, the Medicare carriers, or the ambulance suppliers. Therefore,
we limited our review of internal controls at CMS and selected carriers to the payment controls
in place to prevent and detect Part B overpayments to ambulance suppliers for transportation
already included in Medicare Part A payments to SNFs. We limited our review of internal
controls at the ambulance suppliers to obtaining an understanding of controls related to
developing and submitting Medicare claims for transportation provided to beneficiaries during
Part A SNF stays.




1
Since October 2005, CMS has transferred some contracted services from carriers and fiscal intermediaries to
Medicare administrative contractors.


                                                        2

Our fieldwork consisted of contacting ambulance suppliers; SNFs; and third-party providers,
including outpatient hospitals, physician offices, and dialysis facilities, nationwide from
September 2008 through March 2009. We also contacted two Medicare carriers.

Methodology

To accomplish our objective, we:

    •	 reviewed applicable laws, regulations, and Medicare program guidance;

    •	 used data from CMS’s National Claims History file to perform a nationwide computer
       match of ambulance, SNF, and outpatient claims and eliminated ambulance
       transportation excluded from consolidated billing to determine the number of potential
       Medicare Part B overpayments to ambulance suppliers for CY 2006 (Appendix B);

    •	 selected a stratified random sample of 100 claims from the 97,899 ambulance claims
       identified by our computer match with paid amounts of $2,000 or less and reviewed all
       14 claims that had paid amounts greater than $2,000, for a total of 114 claims reviewed
       (Appendix C);

    •	 reviewed available data from CMS’s Common Working File for the 114 ambulance
       claims and the corresponding SNF and outpatient claims to validate the results of our
       computer match;

    •	 contacted representatives from 81 of the 95 ambulance suppliers that submitted the 114
       claims 2 to confirm the overpayments and to determine the underlying causes of
       noncompliance with Medicare requirements;

    •	 contacted the SNFs associated with the ambulance claims to verify admission and 

       discharge dates and to determine the reason for the ambulance transportation; 


    •	 contacted the third-party providers associated with the ambulance claims to determine
       what services the beneficiaries had received and whether the third-party providers had
       billed Medicare for the services;

    •	 contacted CMS and two of its carriers to obtain an understanding of how the consolidated
       billing edits in the Common Working File prevent and detect Medicare Part B
       overpayments to ambulance suppliers;

    •	 estimated the potential overpayments that Medicare Part B carriers made to ambulance
       suppliers nationwide in CY 2006 (Appendix D); and

    •	 discussed the results of our review with CMS.

2
 Most of the 14 remaining suppliers were no longer in business or were under investigation by the Office of
Inspector General.


                                                         3

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Ambulance suppliers did not always comply with consolidated billing requirements in CY 2006.
Of the 114 claims that we reviewed, 61 claims totaling $26,983 were incorrectly billed to
Medicare Part B for transporting beneficiaries to receive services that did not suspend or end
their SNF resident status and were not related to dialysis. The ambulance transportation was thus
subject to consolidated billing and should not have been billed to Medicare Part B. As a result,
the Medicare program paid twice for the ambulance transportation: once to the SNF under the
Part A prospective payment system and again to the ambulance supplier under Part B. For the
53 remaining claims, suppliers correctly billed Part B for transportation excluded from
consolidated billing because the transportation either ended the beneficiaries’ SNF resident status
or was for services that suspended their SNF resident status or were related to dialysis.

Based on our sample results, we estimated that Medicare Part B carriers made a total of
$12.7 million in potential overpayments to ambulance suppliers for transportation provided to
beneficiaries in Part A SNF stays in CY 2006. These potential overpayments occurred because
ambulance suppliers did not have the necessary controls to prevent incorrect billing to Medicare
Part B and because SNFs did not always provide the suppliers with accurate information
regarding SNF residents’ Medicare Part A status. In addition, the payment controls in CMS’s
Common Working File were not designed to prevent and detect Part B overpayments to
ambulance suppliers for all transportation subject to consolidated billing.

PROGRAM REQUIREMENTS

The “Medicare Benefit Policy Manual,” Pub. No. 100-02, chapter 3, section 20, states that
beneficiaries are entitled to have Part A payments made on their behalf for up to 100 days of
covered inpatient extended care services (e.g., SNF stays) in a benefit period.

Pursuant to sections 1862(a)(18) and 1842(b)(6)(E) of the Act, SNFs are responsible for billing
Medicare for most of the services, including ambulance transportation, provided to a SNF
resident during a covered Part A stay. The final rule implementing the SNF consolidated billing
requirement (64 Fed. Reg. 41644, 41674 (July 30, 1999)) states that “when a SNF provides or
makes arrangements for a resident’s transportation by ambulance during the course of a covered
Part A stay, such services are not considered Part B ambulance services under the separate Part B
benefit at section 1861(s)(7) of the Act, but Part A extended care services that SNFs generally
furnish under section 1861(h)(7) of the Act.” Thus, the Part A SNF benefit includes medically
necessary ambulance transportation provided to a SNF resident during a covered Part A stay.
Moreover, pursuant to 42 CFR § 410.40(a)(2), when payment for ambulance transportation is
made directly or indirectly under Medicare Part A, the transportation is not covered under
Medicare Part B.



                                                4

Consolidated billing applies only to services provided to SNF residents. Because a beneficiary is
not a SNF resident at the beginning or end of a SNF stay, 42 CFR § 411.15(p)(2)(x) provides that
ambulance services that begin or end a beneficiary’s status as a SNF resident are not subject to
consolidated billing. Federal regulations at 42 CFR § 411.15(p)(3)(i)-(iv) identify a number of
events that end a beneficiary’s status as a SNF resident. In addition, the 2000 update to the final
rule implementing the SNF consolidated billing requirement (65 Fed. Reg. 46770, 46791
(July 31, 2000)) states that the beneficiary’s status as a SNF resident is suspended when the
beneficiary receives certain outpatient hospital services. The “Medicare Claims Processing
Manual,” Pub. No. 100-04, chapter 6, section 20.1.2, further defines these excluded outpatient
hospital services as emergency services and certain intensive procedures. 3 Because the
beneficiary receiving these services is temporarily not a SNF resident, ambulance transportation
associated with these services is excluded from consolidated billing.

Moreover, ambulance transportation provided in connection with dialysis services is statutorily
excluded from consolidated billing pursuant to section 1888(e)(2)(A)(ii) of the Act.

INCORRECT PART B BILLING

For 61 of the 114 claims that we reviewed, ambulance suppliers incorrectly billed Medicare
Part B for transporting beneficiaries to receive services that did not suspend or end their SNF
resident status and that were not related to dialysis. These claims were thus subject to
consolidated billing. The incorrectly billed claims were for transporting beneficiaries, mostly to
outpatient hospitals, to receive services that included x-rays, ultrasounds, and minor outpatient
surgical procedures. The incorrect billing resulted in overpayments totaling $26,983.

Based on the results of our statistical sample and our additional review of all claims that
exceeded $2,000, we estimated that Medicare Part B carriers nationwide made a total of
$12.7 million in potential overpayments to ambulance suppliers for transportation subject to
consolidated billing.

CAUSES OF OVERPAYMENTS

Inadequate Controls at Ambulance Suppliers and Skilled Nursing Facilities

Ambulance suppliers did not have the necessary controls to prevent the incorrectly billed claims
that we identified. Specifically, suppliers did not fully understand that some third-party services,
such as ultrasounds, suture removals, and blood transfusions, did not suspend beneficiaries’ SNF
resident status and were thus subject to consolidated billing. In some instances, ambulance
suppliers incorrectly believed that the transportation was for services that were excluded from
consolidated billing (e.g., an MRI). However, in these instances, the services that the
beneficiaries actually received at the outpatient facility (e.g., an ultrasound) were different from

3
 Examples of these services and procedures include certain types of cardiac catheterization, computerized axial
tomography scans, magnetic resonance imaging (MRI), ambulatory surgery that involves the use of a hospital
operating room, radiation therapy services, and lymphatic and venous procedures. A complete list of excluded
services can be found at https://www.cms.hhs.gov/SNFPPS/05_ConsolidatedBilling.asp. Accessed on April 17,
2009.


                                                         5

those originally communicated to the ambulance supplier and were subject to consolidated
billing. These suppliers did not contact the third-party providers or the SNFs to confirm that the
services performed were the same as those originally planned.

In addition, SNFs did not always accurately communicate beneficiaries’ Part A SNF resident
status to ambulance suppliers, and the suppliers did not obtain confirmation of such status from
SNFs before billing Medicare. Instead, the suppliers mistakenly assumed that the beneficiaries’
Part A benefits had ended and that the beneficiaries were covered under Part B.

Inadequate Medicare Payment Controls

Medicare Part B carriers made overpayments to ambulance suppliers for transportation subject to
consolidated billing because the payment controls in CMS’s Common Working File were not
designed to prevent and detect these overpayments. Specifically, the Common Working File did
not have edits that were (1) based on applicable Healthcare Common Procedure Codes and
revenue center codes and (2) designed to identify transportation for services that did not suspend
the beneficiaries’ SNF resident status and were not related to dialysis services.


            Example: Overpayment Billed by Supplier and Undetected by Edit

An ambulance supplier transported a SNF resident covered under Medicare Part A to a hospital
to receive a scheduled wound debridement. Because this nonemergency service did not suspend
the beneficiary’s SNF resident status, the transportation was subject to consolidated billing.
However, the supplier billed Part B instead of the SNF because the supplier was unaware that
wound debridement is a minor surgical procedure that does not suspend or end the beneficiary’s
SNF resident status. The Common Working File edits did not identify the ambulance service as
subject to consolidated billing because the edits were not designed to detect claims for
transporting SNF residents to hospitals for nonemergency outpatient services. As a result,
Medicare paid for the ambulance service twice.


RECOMMENDATIONS

We recommend that CMS:

   •	 instruct its carriers to recover the $26,983 in overpayments for the 61 incorrectly billed
      claims that we identified;

   •	 instruct its carriers to review the 97,799 claims that we did not review, which represent
      $12.7 million in potential Part B overpayments;

   •	 provide additional guidance on its Web site to assist ambulance suppliers and SNFs in
      complying with consolidated billing requirements;




                                                6

   •	 instruct its carriers and fiscal intermediaries to provide guidance to suppliers and SNFs
      on strengthening billing controls to ensure compliance with consolidated billing
      requirements, including timely and accurate communication between suppliers and SNFs
      regarding beneficiaries’ Medicare Part A status; and

   •	 either establish additional edits in its Common Working File to prevent and detect Part B
      overpayments for ambulance transportation subject to consolidated billing or instruct its
      carriers to develop a postpayment data match and recover any identified overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations. CMS stated that it
would recover the overpayments consistent with its policies and procedures and requested that
we furnish the data necessary for it to review claims and recover the overpayments. CMS also
stated that it had published provider education materials relating to ambulance transportation
subject to consolidated billing and described other corrective actions planned or already
underway. CMS’s comments are included in their entirety as Appendix E.

As requested, we provided the data necessary for CMS to initiate its review and recovery effort.




                                                7

APPENDIXES

                                                                                                     APPENDIX A 



              PREVIOUS OFFICE OF INSPECTOR GENERAL REPORTS ON

          MEDICARE PART B PAYMENTS MADE ON BEHALF OF BENEFICIARIES

                DURING PART A SKILLED NURSING FACILITY STAYS 



                                                                 Period              Total
                                            1
            Report Title and Number                             Covered          Overpayments              Issue Date
                                                               by Review           Identified

“Review of Compliance With the Consolidated Billing
Provision Under the Prospective Payment System for           Oct. 1, 1998 –
             $0              Mar. 27, 2000
Skilled Nursing Facilities” (A-01-99-00531)                  April 30, 1999 


“Review of Potential Improper Payments Made by
Medicare Part B for Services Covered Under the Part A         Calendar year 
      $47.6 million 2        June 5, 2001
Skilled Nursing Facility Prospective Payment System”           (CY) 1999 

(A-01-00-00538)

“Medicare Part B Payments for Durable Medical
Equipment Provided to Beneficiaries in Skilled Nursing         CYs 1996 –
          $35 million           July 23, 2001
Facilities” (A-01-00-00509)                                      1998 


“Medicare Part B Payments for Durable Medical
Equipment Provided to Beneficiaries in Skilled Nursing
Facilities for Time Periods Between the Full Month             CYs 1999 –
         $10.5 million          Oct. 17, 2001
Periods Covered by Our Prior Report and the Date of              2000 

Discharge From the Skilled Nursing Facility”
(A-01-01-00513)

“Review of Improper Payments Made by Medicare Part
B for Services Covered Under the Part A Skilled                CYs 1999 –
        $108.3 million         May 28, 2004
Nursing Facility Prospective Payment System in                   2003 

Calendar Years 1999 and 2000” (A-01-02-00513)

“Payments for Durable Medical Equipment,
Prosthetics, Orthotics, and Supplies Made on Behalf of         CYs 1999 –
         $112 million          June 26, 2007
Beneficiaries in Skilled Nursing Facility Stays Covered          2003 

Under Medicare Part A” (A-01-05-00511)

“Payments for Outpatient Hospital, Laboratory, and
Radiology Services Made on Behalf of Beneficiaries in          CYs 2001–
         $124.8 million          Jan. 30, 2008
Skilled Nursing Facility Stays Covered Under Medicare            2003 

Part A” (A-01-06-00503)




    1
    With the exception of report number A-01-01-00513, which was issued as an addendum to report number
    A-01-00-00509, these reports are available at http://oig.hhs.gov.
    2
     As noted in report number A-01-02-00513, we reduced the $47.6 million to $40.7 million to account for improper
    payments refunded by suppliers after this review, as well as refinements in our matching methodology.
                                                                                  APPENDIX B
                                                                                    Page 1 of 2

                 COMPUTER MATCH METHODOLOGY TO IDENTIFY 

                        POTENTIAL OVERPAYMENTS 


COMPILING DATA TO IDENTIFY POTENTIAL OVERPAYMENTS

Skilled Nursing Facility Data

For skilled nursing facility (SNF) claims, we:

   •	 extracted claim information from the National Claims History file for CY 2006;

   •	 limited the population to claims with revenue center code 0022, denoting a prospective
      payment;

   •	 eliminated claims involving hospital swing beds (type of bill 18X);

   •	 eliminated claims for managed care organization enrollees (condition code 04); and

   •	 sorted claims by beneficiary and admission date and grouped the sorted claims together
      to identify SNF stays.

Outpatient Data

For outpatient claims, we:

   •	 extracted paid claim information from the National Claims History file for CY 2006 for
      dialysis and related services, as identified by revenue center codes 0820–0859, and

   •	 extracted paid claim information from the National Claims History file for CY 2006 for:

           o	 emergency room services, as identified by revenue center codes 0450–0459, and

           o	 intensive services excluded from consolidated billing, as identified by applicable
              Healthcare Common Procedure Coding System (HCPCS) codes in program
              guidance from the Centers for Medicare & Medicaid Services (CMS).

Ambulance Data

For ambulance claims, we:

   •	 extracted paid claim information from the National Claims History file for CY 2006, as
      denoted by type of service code D (ambulance) and place of service code 41 (land only),
      and

   •	 matched the paid claim information to the grouped SNF stays based on beneficiaries’
      health insurance claim numbers from the SNF claim data.
                                                                                   APPENDIX B
                                                                                     Page 2 of 2

IDENTIFYING POTENTIAL OVERPAYMENTS

To identify potential overpayments, we eliminated the following allowable ambulance
transportation and professional services:

   •	 transportation that had a $0 Medicare payment, $0 coinsurance payment, and $0 

      deductible; 


   •	 services provided during ambulance transportation with an HCPCS modifier indicating a
      professional component;

   •	 transportation that matched outpatient claims for dialysis and related services, as 

      identified by revenue center codes 0820–0859; 


   •	 transportation that matched outpatient claims billed the day before, the day after, or the
      same day for:

          o	 emergency room services, as identified by revenue center codes 0450–0459, and

          o	 intensive services excluded from consolidated billing, as identified by the
             applicable HCPCS codes in CMS program guidance;

   •	 transportation provided during the noncovered portion of the SNF stay; and

   •	 transportation provided on the day of SNF admission or discharge.
                                                                                   APPENDIX C 




                       SAMPLING DESIGN AND METHODOLOGY 


POPULATION 


The population consisted of claims for ambulance transportation provided to beneficiaries in
Part A SNF stays during CY 2006.

SAMPLING FRAME

The sampling frame was a database of 97,913 claims totaling $23,679,926 for ambulance
transportation provided to beneficiaries in Part A SNF stays during CY 2006. We stratified the
frame into three strata based on Medicare paid amounts. Stratum 1 consisted of 63,104 claims
for which Medicare paid $0 to $250, stratum 2 consisted of 34,795 claims for which Medicare
paid $250.01 to $2,000, and stratum 3 consisted of 14 claims for which Medicare paid more than
$2,000.

SAMPLE UNIT

The sample unit was a claim billed by an ambulance supplier on behalf of a beneficiary in a
Part A SNF stay.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected 60 ambulance claims from stratum 1 and 40 from stratum 2. We also reviewed all
14 claims in stratum 3, for a total of 114 claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, statistical software.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame from 1 to 63,104 for stratum 1 and
from 1 to 34,795 for stratum 2. After generating 60 random numbers for stratum 1 and 40 for
stratum 2, we selected the corresponding sample units.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the potential overpayments.
                                                                               APPENDIX D 




                         SAMPLE RESULTS AND ESTIMATES 


                                     Sample Results 


                                                         Number of       Value of
                                                         Incorrectly    Incorrectly
                Frame        Sample        Value of        Billed         Billed
   Stratum       Size         Size         Sample          Claims         Claims

Payments of
$0 to $250.00   63,104          60          $11,209          34              $6,236


Payments of
$250.01 to      34,795          40          13,629           21               7,035
$2,000


Payments
greater than      14            14          36,194            6              13,712
$2,000


   Total        97,913         114          $61,032          61              $26,983


                    Estimated Value of Incorrectly Billed Claims 

                (Limits Calculated for a 90-Percent Confidence Interval) 


                  Point estimate                        $12,691,511
                  Lower limit                           $10,648,596
                  Upper limit                           $14,734,427
      ~i:KVICl::s
     .;'EllV1Ces                                                                                                     APPENDIX E

("    ~	                DEPARTMENT OF HEALTH & HUMAN SERVICES                                                Centers
                                                                                                                       Page 1 of 3
                                                                                                             Centers for
                                                                                                                      for Medicare
                                                                                                                          Medicare && Medicaid
                                                                                                                                      Medicaid Services
                                                                                                                                               Services

~~~.~~~~
("'~ DEPARTMENT OF HEALTH & HUMAN SERVICES

~~~.~~\f                                                                                                     Administrator
                                                                                                             Administrator
                                                                                                             Washington,
                                                                                                             Washington, DC
                                                                                                                         DC 20201
                                                                                                                             20201


                                                                                                                      t,)
                                                                                                                      I, ~:1

                                                                                                                      ('a\            :,4)
                                                                                                                                                 r-
                                                                                                                        li#
                                                                                                                                      '.'1 I     =
                                                                                                                                                 r--.J
                                                                                                                                                 <::::)
                                                                                                                                                 ç.=
                                                                                                                                                 c..-'::l
                                                                                                                                         - ~j
                                                                                                                                      '-'(1
                                                                                                                                        ~l
                                                                                                                                      ....v
                                                                                                                                           .....'7
                                                                                                                                                              :i\)
                                                                                                                                           C-
                    DATE:	
                    DATE:               JUL         a
                                        JUL 330 2009	
                                                 2009                                                                         O
                                                                                                                              Ci
                                                                                                                              ,.1
                                                                                                                               I""j.,
                                                                                                                                   '.
                                                                                                                                      '"
                                                                                                                                      C)
                                                                                                                                       : I
                                                                                                                                           C­
                                                                                                                                           .-)
                                                                                                                                      ;--,.1
                                                                                                                                            ,I
                                                                                                                                                 ,c::
                                                                                                                                                 c:
                                                                                                                                                 r-            "¡i
                                                                                                                                                              (')
                                                                                                                              z-
                                                                                                                              :æ::
                                                                                                                              1"'" ,..
                                                                                                                              ""
                                                                                                                                            ,
                                                                                                                                                 a
                                                                                                                                                 W
                                                                                                                                                 W
                                                                                                                                                 0
                                                                                                                                                              !'~11':t
                                                                                                                                                              ¡ ~ I


                    TO:	
                    TO:                         Levinson
                                      Daniel R. Levinson	
                                                                                                                              Xl:
                                                                                                                              X") ..:'


                                                                                                                              rJ:"
                                                                                                                                  !
                                                                                                                              :t,..
                                                                                                                                                 v3:.....--
                                                                                                                                                 -0             . ~-'..
                                                                                                                                                                 .~.
                                      Inspector General	
                                                General	                                                                      't-p~,                          (1"1
                                                                                                                                                 N
                                                                                                                                                 N..
                                                                                                                                                              (J

                                  C l~                                                                                           (¡
                                                                                                                                 ( )
                                     !	          ..::\..' 3'b"Vt..-t	........	
                                                odVl                                                                                  .-     ,   W
                    FROM:	
                    FROM:               11  e~rizzera
                                  C'LekarTene
                                         ar o~ 9-vì
                                               Frizzera3'b--t-t'-	                                                                               \.
                                                                                                                                                 W
                                                                                                                                                  \.0
                                                                                                                                                                          f ':
                                     Acting Administrator

                    SUBJECT:	 Office ofInspector
                    SUBJECT:                     General's Draft
                                     ofInspector General's Draft Report:
                                                                 Report: "Payments
                                                                           "Paymentsfor
                                                                                      forAmbulance
                                                                                         Ambulance
                              Transportation Provided to Beneficiaries in
                                                                       in Skilled
                                                                          Skilled Nursing Stays
                                                                                          Stays Covered under
                                      Medicare Part
                                      Medicare Part A in Calendar
                                                    A in Calendar Year
                                                                  Year 2006" (A-OI-08-00505)
                                                                       2006" (A-O 1-08-00505)




                    The Centers for Medicare &           & Medicaid Services (CMS) appreciates
                                                                                          appreciates the oppoiiunity
                                                                                                          opportunity to
                                                                                                                       to respond
                                                                                                                          respond to
                                                                                                                                  to
                          Office ofInspector
                    the Offce        ofInspectorGeneral's
                                                      General's(OIG)
                                                                 (GIG)draft
                                                                         draftreport,
                                                                                report,"Payments
                                                                                        "Paymentsfor
                                                                                                  forAmbulance
                                                                                                       AmbulanceTransportation
                                                                                                                  Transportation
                    Provided to Beneficiaries in Skilled             Nursing   Stays Covered  under  Medicare
                                                            Skiled Nursing Stays Covered under Medicare Part A Pati A in
                                                                                                                       in Calendar
                                                                                                                          Calendar
                    Year     2006."      The     objective
                    Year 2006." The objective of 
         of the review was to determine whether ambulance suppliers
                    complied with consolidated billing requirements requirements inin calendar year (CY)
                                                                                                    (CY) 2006.   The OIG
                                                                                                           2006. The   OIG found
                                                                                                                            found
                    that some ambulance suppliers incorrectly              billed  Medicare.  Like  the OIG,  CMS   is concerned
                                                               incorrectly billed Medicare. Like the OIG, CMS is concerned
                    that ambulance suppliers did not always comply with consolidated billing requirements in
                    CY 2006.

                    When the skilled nursing facility prospective payment system (SNF PPS) was introduced in
                    1998,
                     1998, itit changed
                                changed not
                                          not only
                                              only the
                                                    the way SNFs are     are paid but also the way SNFs must work with
                    suppliers,
                    suppliers, physicians, and other practitioners. Under the SNF consolidated billing provision
                                  physicians,  and  other   practitioners.                                             provision of
                    the Social
                         Social Security
                                  Security Act,
                                            Act, the
                                                  the Medicare
                                                      Medicare billing        responsibility is
                                                                      biling responsibility    is placed
                                                                                                  placed with
                                                                                                          with the
                                                                                                               the SNF
                                                                                                                   SNF itself
                                                                                                                       itself for most
                    of its residents' services. The The SNF
                                                         SNF consolidated
                                                                consolidated bilingbillingrequirement
                                                                                           requirementmakes
                                                                                                         makesthetheSNF
                                                                                                                     SNF responsible
                                                                                                                          responsible
                    for
                    for including
                        including on  on the
                                         the Pati
                                             Part AA bill  that itit submits
                                                      bil that       submits toto its
                                                                                   its Medicare
                                                                                       Medicare claims
                                                                                                  claims processing contractor
                    almost allall of the services  that a  resident     receives   during  the course  of a Medicare-covered stay,
                                                                                                       of
                    except forfor a small  number   of services that are specifically excluded from this provision.

                    These
                    These "excluded" services can be separately furnished to the resident and billed under Medicare
                    Part
                    Part BB by
                             by aa variety
                                   variety ofof outside
                                                outside sources.    These sources
                                                         sources. These    sources can
                                                                                     can include other providers of
                                                                                                                 of service
                    (such  as  hospitals),   which   would   submit  the bill  for Part B services to their Medicare
                    (such as hospitals), which would submit the bill for Paii B services to their Medicare claims    claims
                    processing contractor,
                                  contractor, as as well
                                                    well as practitioners and suppliers who would generally submit their
                    bills
                    bills to a Medicare Part B claims
                          to a Medicare     Part  B  claims processing
                                                             processing contractor.
                                                                          contractor. Ambulance services have not been
                    identified
                    identified asas aa type
                                       type of
                                             of service
                                                service that
                                                         that is
                                                              is categorically excluded from the consolidated billing
                    provisions, and certain types ambulance transportation
                    provisions,    and  certain  types  of ambulance    transpoiiation have been identified asas being
                    separately
                    separately billable
                                  billable in
                                            in specific
                                               specific situations,
                                                         situations, as
                                                                     as you
                                                                        you describe
                                                                              describe in
                                                                                        in your
                                                                                           your report.
                                                                                                report.
                                                                                                              APPENDIX E
                                                                                                                Page 2 of 3



Page 22 -- Daniel
Page        DanielR.
                   R.Levinson
                      Levinson

    Recommendation
DIGRecommendation
OIG
CMS should
CMS    shouldinstruct
              instructits
                       its carriers
                            carriers to
                                      to recover
                                          recoverthe
                                                  the$26,983
                                                      $26,983 ininoverpayments
                                                                   overpaymentsfor
                                                                                forthe
                                                                                    the61
                                                                                        61 incorrectly
                                                                                            incorrectly
billed claims that we  identified.
biled claims that we identified.

CMS Response
CMS Response

 We concur
We   concur with
             with this
                  this recommendation.
                        recommendation. CMS CMSagrees
                                                   agreesthat
                                                           thatthe
                                                                the$26,983
                                                                     $26,983ininoverpayments
                                                                                  overpayments should
                                                                                                    should be
                                                                                                           be
 recovered.  CMS    plans  to recover  the overpayments    identified   consistent  with
recovered. CMS plans to recover the overpayments identified consistent with the Agency's the  Agency's
policies and
policies and procedures,
              procedures, which
                             which includes
                                    includes limiting
                                              limiting recoveries
                                                        recoveries to
                                                                    to those
                                                                        those recoveries
                                                                               recoveries that
                                                                                           that are
                                                                                                are
 administratively  cost  effective.
administratively cost effective.

The  010 wil
The OIG   willbe
               berequired
                  requiredtotofurnish,
                               furnish,forforeach
                                              eachoverpayment
                                                    overpaymentor orpotential
                                                                    potential overpayment,
                                                                                overpayment, thethe data
                                                                                                    data
necessary (Medicare
necessary  (Medicare contractor
                      contractor numbers,
                                    numbers, provider
                                                provider numbers,
                                                         numbers, claims
                                                                   claims information
                                                                            information -- including
                                                                                            including the
                                                                                                       the
paid date, HIC  numbers,  etc.)  to  initiate and  complete  recovery action.   In addition,
paid date, HIC numbers, etc.) to initiate and complete recovery action. In addition, Medicare Medicare
contractor-specific data
contractor-specific data should
                         should be be written
                                       written to
                                                to separate
                                                   separate CD-ROMs
                                                            CD-ROMs or  or separate
                                                                           separate hardcopy
                                                                                     hardcopy
worksheets  in order to better  facilitate  the transfer of information to  the appropriate   contractors.
worksheets in order to better facilitate the transfer of information to the appropriate contractors.

    Recommendation
DIG Recommendation
OIG
CMS should
CMS   should instruct
             instruct its
                      its carriers
                           carriers to
                                    to review
                                       review the
                                               the 97,799
                                                   97,799 claims
                                                          claims that the 010
                                                                 that the OIG did
                                                                              did not review, which
                                                                                  notreview,  which
represent $12.7 million   in potential  Part B overpayments.
represent $12.7 milion in potential Part B overpayments.

CMS
CMS Response
    Response
We
We concur
      concur with
               with thisthis recommendation.
                              recommendation. CMS         CMS wil  willshare
                                                                           sharethe
                                                                                  the OIG
                                                                                      OIG report
                                                                                            report and
                                                                                                   and any
                                                                                                        any additional
                                                                                                             additional claim
                                                                                                                          claim
information received from the 010
information     received       from     the   016 withwith the
                                                            the Medicare
                                                                  Medicare claimsclaims administration
                                                                                         administration contractors.
                                                                                                          contractors. CMSCMS
will   instruct the   Medicare         contractors      to  consider       the issues  identified
wil instruct the Medicare contractors to consider the issues identified in this report and the    in this report  and  the
additional
additional claim
             claim information
                        information when   when prioritizing
                                                     prioritizing their
                                                                      their medical
                                                                              medical review
                                                                                        review strategies   or ,Other
                                                                                                strategies or   other
interventions.
interventions. This information wil also be provided to the Recovery Audit Contractors to
                    This     information        will   also  be   provided      to the Recovery    Audit  Contractors    to
determine
determine if
             if this
                 this isis
                         an an
                            areaarea    they
                                 they wish      wishreview
                                           to conduct  to conduct
                                                           for claims onreview
                                                                         

                                                                                                     after October
                                                                                  for claims on or after   October 1, 1,2007.
                                                                                                                        2007.

  OIG Recommendation
. DIG Recommendation
CMS
 CMS should
       should provide
              provide additional
                      additional guidance
                                 guidance on
                                          on its
                                             its Web
                                                 Web site
                                                     site to
                                                          to assist
                                                             assist ambulance
                                                                    ambulance suppliers
                                                                              suppliers and
                                                                                        and SNFs
                                                                                            SNFs
in
 in complying
    complyingwith
               withconsolidated
                    consolidatedbilling.
                                  biling.

CMS
CMS Response
    Response
We
We concur
     concur with
             withthis
                  thisrecommendation.   On January
                       recommendation. On    January 9,
                                                      9, CMS
                                                         CMS published
                                                               published an
                                                                          an MLN
                                                                             MLN Matters
                                                                                   Matters Special
                                                                                            Special
Edition article on "Skilled Nursing Facility  Consolidated  Billing As It Relates to Ambulance
Edition article on "Skiled Nursing Facility Consolidated Biling As It Relates to Ambulance
Services"
Services"(MLN
           (MLN matters
                   mattersNumber
                           Number SE0433)
                                   SE0433) to to provide
                                                 provide additional
                                                         additional guidance
                                                                    guidance and
                                                                              and describe
                                                                                   describe SNF
                                                                                            SNF
                                                                                                                 APPENDIX E
                                                                                                                   Page 3 of 3



Page33-- Daniel
Page            R.Levinson
          DanielR. Levinson

Consolidated Biling
Consolidated Billingasasititapplies
                             appliestotoambulance
                                         ambulanceservices.
                                                   services. This
                                                              Thisarticle
                                                                   articleisisavailable
                                                                               availableonline
                                                                                         onlineatat
www.cms.hhs.gov/MLNMattersArticles/downloads/SE0433.pdf.
ww.cms.hhs.gov/MLNMattersArticles/downloads/SE0433.pdf.

OIGRecommendation
OIG Recommendation

 CMS should
CMS       should instruct
                      instruct its its carriers
                                        carriers and
                                                  and fiscal
                                                       fiscal intermediaries
                                                               intermediaries to
                                                                               to provide
                                                                                  provide guidance
                                                                                            guidance to
                                                                                                      to suppliers
                                                                                                          suppliers and
                                                                                                                     and
 SNFs     on    strengthening         billing
SNFs on strengthening billng controls 
        controls   to
                                                         to  ensure
                                                             ensure  compliance
                                                                     compliance     with
                                                                                   with   consolidated
                                                                                         consolidated   billing
                                                                                                       biling

 requirements, including
requirements,          including tiinelytiinely and
                                                 and accurate
                                                      accurate communication
                                                                 communicationbetween
                                                                                   betweensuppliers
                                                                                             suppliersand
                                                                                                        andSNFs
                                                                                                             SNFs
 regarding       beneficiaries'         Medicare
regarding beneficiaries' Medicare Part A status.    Part  A  status.

CMS Response
CMS Response

 We concur
We     concUr with with this
                           this recommendation.
                                  recommendation. CMS           CMS issued
                                                                         issued aa manual
                                                                                     manual instruction
                                                                                              instruction on
                                                                                                           on May
                                                                                                               May 21,  2004, and
                                                                                                                    21,2004,   and
December23,             2004,     to  explain      to  the   Medicare        contractors,
December23, 2004, to explain to the Medicare contractors, SNFs, and suppliers of 
         SNFs,    and  suppliers of the
                                                                                                                      the
requirement that
requirement          that must
                            must be  be met
                                         met in in order
                                                     order forfor Medicare
                                                                    Medicare SNFs  SNFs to
                                                                                         to have
                                                                                            have aa valid
                                                                                                     valid "arrangement"
                                                                                                           "arrangement" inin effect
                                                                                                                              effect
with     an  outside      supplier      in  order    to  prevent      potential     problems.   In
with an outside supplier in order to prevent potential problems. In addition, on January 24, 2005,  addition, on January  24,  2005,
CMS published
CMS       published an     an MLN
                                MLN Matters
                                          Matters article
                                                       aricle on on "Skiled
                                                                      "SkilledNursing
                                                                                   Nursing Facility
                                                                                             Facility (SNF)
                                                                                                       (SNF) Consolidated
                                                                                                              Consolidated Billing
                                                                                                                             Biling
Service      Furnished        Under      an   "Arrangement"             with    an Outside
Service Furnished Under an "Arrangement" with an Outside Entity" (MLN Matters number         Entity"  (MLN    Matters  number
MM3592) to
MM3592)           to further
                      further clarify
                                  clarify thethe purpose
                                                   purpose of    of arrangements
                                                                     arrangements between
                                                                                        between suppliers
                                                                                                   suppliers and
                                                                                                              and SNFs.   This
                                                                                                                  SNFs. This
article    is  available       online    at  www.cms.hhs.gov/MLNMattersAliicles/downloadsIMM3592.pdf.
article is available online at www.cms.hhs.gov/MLNMattersAiiicles/downloads/MM3592.pdf.

OIG Recommendation
OIG Recommendation

CMS
CMS should    either establish
      should either  establish additional edits in
                               additional edits in its
                                                   its Common
                                                       Common Working
                                                                  Working File
                                                                            File to
                                                                                 to prevent
                                                                                    prevent and
                                                                                              and detect
                                                                                                  detect
Part B overpayments     for ambulance  transportation   subject to consolidated   billing or instruct
Part B overpayments for ambulance transportation subject to consolidated biling or instruct its       its
carriers
carriers to develop aa postpayment
         to develop    postpayment data
                                     data match
                                          match and
                                                 and recover
                                                       recover any
                                                                any identified
                                                                    identified overpayments.
                                                                               overpayments.

CMS
eMS Response
We
We concur
      concur with with thethe OIG's        recommendation and
                                OIG's recommendation                   and thethe need
                                                                                    need to
                                                                                          to ensure
                                                                                             ensure proper
                                                                                                    proper payments
                                                                                                             payments are
                                                                                                                       are made
                                                                                                                           made in
                                                                                                                                in
regard     to  ambulance         transportation          subject     to  the   SNF
regard to ambulance transportation subject to the SNF consolidated biling requirement. consolidated  billing requirement.  By
September
September 2009, we2009,     weourwill
                   wil complete          complete
                                    research and analysesour   research
                                                          to determine if 
 and analyses to determine if the
                                                                                                               the OIG's suggested
solutions
solutions wouldwould      work
                work the best      the another
                              or whether best or     whether
                                                 solution should beanother
                                                                    considered. solution
                                                                                Pending 
  should be considered. Pending thethe
results
results of  of our
                our analyses,
                      analyses, we    we will     complete implementation
                                           wil complete           implementation of       of the
                                                                                             the identified
                                                                                                 identified solution
                                                                                                            solution by
                                                                                                                     by April
                                                                                                                        April
2010.
2010.

In
In closing,
    closing, your
             your report
                  report provides
                          provides additional
                                    additional insight
                                                insight to
                                                         to the
                                                             the billing practices of
                                                                 biling practices   of ambulance
                                                                                       ambulance suppliers.
                                                                                                   suppliers.
We
 We appreciate
     appreciate your
                 your attention
                       attentionto
                                 tothe
                                    the SNF
                                        SNFconsolidated
                                             consolidatedbilling
                                                               biling policy
                                                                       policy as
                                                                              as it
                                                                                 it relates
                                                                                    relates to
                                                                                             to ambulance
                                                                                                ambulance
services.  We look
 services. We  look forward
                     forward to
                              to working
                                 working with
                                           with you
                                                 you to
                                                     to address
                                                          address this
                                                                    this very
                                                                         very important
                                                                              important issue.
                                                                                           issue.
